<html>
<title> - TSA OVERSIGHT PART III: EFFECTIVE SECURITY OR SECURITY THEATER?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





    TSA OVERSIGHT PART III: EFFECTIVE SECURITY OR SECURITY THEATER?

=======================================================================

                             JOINT HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                                and the

                      COMMITTEE ON TRANSPORTATION
                           AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 26, 2012

                               __________

    Printed for the use of the Committees on Government Reform and 
                   Transportation and Infrastructure

                           Serial No. 112-174
              Committee on Oversight and Government Reform

                           Serial No. 112-78
             Committee on Transportation and Infrastructure





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-743 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 26, 2012...................................     1

                               WITNESSES

Mr. Christopher L. McLaughlin, Assistant Administrator for 
  Security Operations, Transportation Security Administration
    Oral statement...............................................     5
    Written statement............................................     8
Mr. Stephen Sadler, Assistant Administrator for Intelligence and 
  Analysis, Transportation Security Administration
    Oral statement...............................................     6
    Written statement............................................     8
Mr. Stephen M. Lord, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office
    Oral statement...............................................    17
    Written statement............................................    00
Rear Admiral Paul F. Zukunft, Assistant Commandant for Marine 
  Safety, Security, and Stewardship, U.S. Coast Guard
    Oral statement...............................................    19

                                APPENDIX

The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................    62
Facebook Questions & Comments for TSA............................    64
Questions for The Honorable John S. Pistole, Administrator, 
  Transportation Security Administration from The Chairman of the 
  Committee on Transportation and Infrastructure, The Honorable 
  John L. Mica, a Member of Congress from the State of Florida...    67
Submitted for the Record by The Honorable Blake Farenthold, a 
  Member of Congress from the State of Texas.....................    69
The Honorable Gerald E. Connolly, a Member of Congress from the 
  State Virginia, Opening Statement..............................    70
Questions and Responses..........................................    71

 
    TSA OVERSIGHT PART III: EFFECTIVE SECURITY OR SECURITY THEATER?

                              ----------                              


                         Monday, March 26, 2012

                  House of Representatives,
Committee on Oversight and Government Reform, joint 
                                           with the
            Committee on Transportation and Infrastructure,
                                                   Washington, D.C.
    The committees met, pursuant to call, at 1:32 p.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the Committee on Oversight and Government Reform] 
presiding.
    Present from the Committee on Oversight and
    Government Reform: Representatives Issa, Mica, Farenthold, 
Cummings, Norton, and Connolly.
    Present from the Committee on Transportation and 
Infrastructure: Representatives Mica, Petri, Coble, Cravaack, 
Farenthold, Norton, Cummings, Boswell, and Cohen.
    Also Present: Representative Blackburn.
    Staff Present from the Committee on Oversight and 
Government Reform: Thomas A. Alexander, Senior Counsel; Michael 
R. Bebeau, Assistant Clerk; Molly Boyl, Parliamentarian; Gwen 
D'Luzansky, Assistant Clerk; Adam P. Fromm, Director of Member 
Services and Committee Operations; Linda Good, Chief Clerk; 
Mitchell S. Kominsky, Counsel; Mark D. Marin, Director of 
Oversight; Jeff Solsby, Senior Communications Advisor; Rebecca 
Watkins, Press Secretary; Kevin Corbin, Minority Deputy Clerk; 
Jennifer Hoffman, Minority Press Secretary; Carla Hultberg, 
Minority Chief Clerk; Peter Kenny, Minority Counsel; Lucinda 
Lessley, Minority Policy Director; and Carlos Uriarte, Minority 
Counsel.
    Staff Present from the Committee on Transportation and 
Infrastructure: Gil Macklin, Professional Staff Member; Sean 
McMaster, Professional Staff Member; and Shant Boyajian, 
Professional Staff Member.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles: First, Americans have a right to know that money 
Washington takes from them is well-spent; and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. We will work tirelessly, in 
partnership with citizen watchdogs, to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    This is our mission statement.
    Today, we are calling the third hearing conducted by the 
Oversight Committee, today a joint hearing, where we plan to 
hold at least two additional TSA oversight hearings in April 
and May.
    There is no question that the TSA serves a vital role. The 
question is, in a post-9/11 period, are we getting value for 
our money? Do we in fact have a system which is thorough and 
complete, that in fact takes care of all of us? Or do we have a 
fairly expensive, labor-intensive system that in fact is not 
making us appreciably safer? In a time of budget limitations, 
TSA, although essential, must in fact deliver value to the 
American people.
    With more than 65,000 men and women working for TSA, it is 
not a small agency. This is more men and women working for an 
aviation-based safety organization than build all the Ford 
automobiles in America combined. Only one-quarter of the funds 
used by TSA come from aviation fees. Three-quarters come 
directly from the American people, meaning those of us who do 
not fly are paying a heavy price for those who do.
    But even the billion-and-a-half-plus dollars paid for out 
of landing fees and other collections, ticket fees, to run our 
airports, in fact, is a high price to pay--a burden, if you 
will, on our efficiency. So whether the dollars come from 
ticket fees or come from the taxpayer directly, it is essential 
that we review TSA's effectiveness.
    By 2013, TSA will arguably, by its own accounting, have 
wasted more than $500 million of taxpayer money developing 
advanced imaging technology, or AIT, machines. In addition to 
public outrage over privacy violations, classified GAO reports 
paint a dire picture of ineffectiveness. GAO believes Screening 
of Passengers by Observation Techniques, or SPOT, program, 
which has already cost taxpayers $800 million, is ineffective 
and that Congress should consider limiting funds for this 
program. GAO, as a nonpartisan organization, claims that TSA 
deployed SPOT before having solid scientific basis for its 
effectiveness and that when it worked, it was only an accident.
    Despite a potential $3.2 billion cost to the Federal 
Government and industry, GAO continues to find that TSA is 
failing to properly administer TWIC, the Transportation Worker 
Identification Credential. I have seen this failure myself. I 
have seen a mandated bio ID simply waived. Showing a picture ID 
is not, in fact, what Congress mandated. Deploying these and 
deploying them in a way in which they are quick and effective 
is essential. Let's remember, it cost a lot of money to produce 
the card; simply using it as a high-price ID card is not 
acceptable.
    Without creating a plan to upgrade its explosive detection 
system, or EDS, which will cost $964 million or more to the 
taxpayer, TSA cannot ensure updating EDS will be feasible or 
cost-effective. Now, let me just reiterate. EDS is an important 
system. Whether it is the inadvertent touching of fertilizer or 
the real operational use of explosives, we need to know. We 
need to screen. It is an effective tool if it works. If it 
doesn't work and work 100 percent of the time, we have the 
biggest problem we could possibly have.
    Lastly, the VIPR program, Visual Intermodal Prevention and 
Response, faces serious questions from both security experts 
and legal scholars about the effectiveness and 
constitutionality of this initiative. TSA is not performing or 
taking into serious consideration the cost-benefits, and that 
is a big part of what this committee is here to ask questions 
on today. Not, is it nice to have; not, might it work; not, do 
we must do something; but, in fact, have we done a cost-benefit 
analysis? Have we screened through many choices, developed, 
researched, but only deployed those which work?
    In fact, what we do know here at this committee and at the 
Transportation Committee is that we have fielded products that 
don't work, in the past. And when it becomes known by the 
public that a product has a gaping flaw, that product becomes 
essentially useless. Sadly, what we discover is, even when it 
becomes public, there is no other tool. So, in fact, we 
continue screening people, knowing that screening alone is not 
enough and that the public knows that.
    And, with that, I now recognize the chairman of the 
Subcommittee on Aviation Infrastructure, Mr. Petri, for his 
opening statement.
    Mr. Petri. Thank you very much, Mr. Chairman. Thank you for 
organizing this important hearing and doing so with the 
Transportation Committee.
    After 9/11, the Transportation Committee held a number of 
hearings to attempt to determine what happened and what needed 
to be done. And it became very clear at those hearings that the 
then-existing Federal policy of requiring easy access to the 
cockpit in case there was a medical emergency or something of 
that sort was not the most secure way to go. That policy was 
changed, and now our cockpits are hardened; that is to say, it 
is very difficult for a passenger to take over an airplane and 
turn it into a weapon, as happened on 9/11.
    That, in my opinion, is the most significant security 
change since that time. Beyond that, of course, people can go 
on airplanes and possibly take a plane down, can create 
mischief, become a hara-kiri person, as they could if they were 
to go to a football stadium or on a cruise liner or any other 
sort of--a train--other modes of transportation. We do have a 
security problem, but it is not restricted to airlines. And the 
major part of the danger of airlines, I think, was dealt with 
when it became impossible for people to take over the airplane 
and turn it into a weapon, as happened on 9/11.
    That said, of course, we have this regime that all of us 
experience who serve in Congress, if you live any distance at 
all, on a weekly basis practically, if not more often. We are 
inspecting millions of travelers, hundreds of thousands, every 
month, the same people over and over and over again. And that 
has to be wasteful and intrusive. And this has been going on 
now for 10 years. If it is going to go on for another 10 years, 
it behooves us to come up with a more efficient, less 
intrusive, more sensible program so that we concentrate on 
where there might be a risk, rather than inspecting the same 
people over and over and over again.
    When we had hearings back at the time of 9/11, experts came 
in, testified before the Transportation Committee, from Israel 
and a number of other countries that certainly have for many 
years faced very, very heightened security threats. Hardening 
the cockpit was one of the things that they advised and which 
we did. Other things that they have advised we have not done: 
trying to track people when they buy tickets and working on the 
intelligence side of things to see if there is some sort of a 
likelihood that that person might be a risk; put ways of 
inspecting people and how they behave not just at the airport, 
looking through their drawers and socks and looking at their 
shoes, but looking at how they interact with ticket agents, how 
they generally behave, not just at the airport but as they go 
about their business of preparing possibly to do things of 
risk.
    It seems to me that there are a lot more strategic and 
intelligent ways to go about it than spending hundreds of 
millions of dollars, impeding the growth of the transportation 
sector, aviation sector, and basically changing the psychology 
of Americans to have them starting to feel that they somehow 
have done something wrong and they are being subjected to pat-
down and shakedown, as we do when we are worrying about someone 
who has committed a crime or--we are assuming everyone is 
guilty and treating them practically like prisoners when they 
are American taxpaying citizens.
    So I feel that we have a lot to do to straighten this whole 
mess out. It is not a cost-effective or very disciplined 
approach. And after 10 years, we owe more to the American 
people.
    Mr. Chairman, thank you for having this hearing.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. The gentleman yields back.
    I now ask unanimous consent that our colleague from 
Tennessee, Mrs. Blackburn, be allowed to participate in today's 
hearing.
    Without objection, so ordered.
    I will now note that the ranking members of each of the 
committees are driving in and have been delayed. It is not a 
flight, as far as I know. So they will make their opening 
statements after our witnesses make theirs. I am assured they 
will be here by then.
    With that, I would like to now introduce our first panel. 
Mr. Christopher L. McLaughlin is the Assistant Administrator 
for Security Operations at the Transportation Security 
Administration. Mr. Stephen Sadler is the Assistant 
Administrator for Intelligence and Analysis at the 
Transportation Security Administration. Mr. Stephen Lord is 
director for homeland security at the U.S. Government 
Accountability Office--our wing, if you will. And Rear Admiral 
Zukunft, with the U.S. Coast Guard, is an Assistant Commandant 
for Marine Safety, Security, and Stewardship, and I might 
mention, without a doubt the best jewel ever given to homeland 
security, in my opinion and in the ranking member's opinion.
    Pursuant to the rules of this committee, would you all 
please rise to take the oath? Raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Let the record indicate that--please have a seat--all 
witnesses answered in the affirmative.
    Now, my predecessor, whose portrait is up there, Mr. Towns, 
began a tradition of explaining the obvious, but he did it 
every time, and I appreciated it. Your entire opening 
statements will be placed in the record. In front of you you 
have a countdown clock. And like so many things that you look 
at, you say, does it really matter? The answer is, please 
summarize if you run out of time. We would like to get through 
all of you and get you out of here with full questions and 
answers in a timely fashion. And remember, your opening 
statements will be available in their entirety.
    Mr. McLaughlin, you are first. You have 5 minutes.

                       WITNESS STATEMENTS

             STATEMENT OF CHRISTOPHER L. MCLAUGHLIN

    Mr. McLaughlin. Good afternoon, Chairman Issa and 
distinguished members of the committees. Thank you for the 
opportunity to testify today.
    TSA has made significant strides in our deployment and 
utilization of AIT over the past year. Automatic Target 
Recognition software, recently installed in the majority of our 
machines, enhanced passenger privacy by eliminating passenger-
specific images, while improving throughput capabilities and 
streamlining the checkpoint screening process.
    In the fall of 2011, my office began to further develop 
operational performance targets, including a new AIT 
utilization goal that is consistent with the DHS, OIG, and GAO 
recommendations. Tied to this, we implemented an action plan to 
increase AIT utilization across the Nation. As a result of 
these efforts, our utilization performance between February 
2011 and February 2012 improved by 200 percent.
    In addition to AIT, we are employing CAT/BPSS technology to 
automatically verify passenger documents. CAT/BPSS will 
eventually replace the current procedures used to detect 
fraudulent or altered documents. We will deploy this technology 
for operational testing at a few airports beginning next month.
    Technology is only one mechanism to identify potential 
threats. The SPOT program uses behavior observation and 
analysis to identify potentially high-risk individuals who may 
pose a threat to transportation security. SPOT was 
scientifically validated in 2011 by the DHS Science and 
Technology Division, representing the most thorough analysis of 
any behavioral screening program to date. No other 
counterterrorism or similar security program is known to have 
been subjected to such a rigorous, systematic evaluation. This 
study revealed that SPOT was significantly more effective at 
identifying high-risk passengers than random screening 
protocols. That said, TSA continues working with DHS S&T and 
the broader research community to increase the effectiveness 
and the efficiency of this behavior-based screening process.
    Subsequent to the validation study, TSA took steps last 
fall to enhance the program. Under a new pilot, behavior 
detection officers employ a specialized interview technique to 
determine if a traveller should be referred for additional 
screening at the checkpoint. This additional interaction, used 
by security agencies worldwide, enables officers to better 
verify or dispel concerns about suspicious behavior and 
anomalies. Preliminary analysis shows an increase in the rate 
of detection of high-risk passengers. And TSA is currently 
conducting analysis with the DHS Science and Technology 
Directorate to inform a validation process for future rollout.
    Complementing these program developments, TSA has begun 
teaching a tactical communications course for our frontline 
workforce. This training focuses on active listening, empathy, 
and verbal communication techniques and will be complete by the 
end of 2012.
    These initiatives are some of the key aspects of TSA's 
security infrastructure that provide the backbone for our 
overall risk-based strategy. This strategy demonstrates our 
commitment to move away from a one-size-fits-all security 
model. While this approach was necessary after 9/11 and has 
been effective over the past decade, key enablers now allow TSA 
to move toward a more intuitive solution.
    Perhaps the most widely known RBS initiative is TSA 
PreCheck. To date, approximately 600,000 passengers have 
experienced an expedited screening through TSA PreCheck. By the 
end of 2012, we expect to offer to passengers in 35 of our 
busiest airports the benefits of TSA PreCheck. In addition to 
eligible frequent fliers and members of CBP's Trusted Traveler 
programs, we just expanded PreCheck to include active-duty U.S. 
military traveling out of Reagan National Airport.
    In addition to PreCheck, last fall we implemented new 
screening procedures for children 12 and under, allowing them 
to leave their shoes on and go through a less intrusive 
security screening process. And just last Monday, at a few 
airports we began testing similar modified procedures for 
passengers 75 and older.
    Finally, we are also supporting efforts to test identity-
based screening for airline pilots. So far, over 470,000 
uniformed pilots have cleared security through the Known 
Crewmember program.
    These initiatives have allowed us to expedite the screening 
process for children, our military, many frequent fliers, and, 
now in testing, the elderly. They have resulted in fewer 
divestiture requirements and a significant reduction in pat-
downs, while allowing us more time to focus on travelers we 
believe are likely to pose a risk to our transportation 
network, including those on terrorist watchlists.
    By enhancing the effectiveness of our current programs and 
layering in our risk-based security initiatives, TSA continues 
to work toward our goal of providing the most effective 
security in the most efficient way.
    Thank you again for the opportunity to testify.
    At this time, I would like to introduce my colleague, Mr. 
Stephen Sadler, Assistant Administrator for TSA's Office of 
Intelligence and Analysis.
    Chairman Issa. The gentleman is recognized.

                  STATEMENT OF STEPHEN SADLER

    Mr. Sadler. Good afternoon, Chairman Issa and distinguished 
members of the committees. I appreciate the opportunity to 
testify on some of the work we are doing in coordination with 
the United States Coast Guard to strengthen security throughout 
our Nation's maritime transportation system.
    The Transportation Worker Identification Credential 
program, or TWIC, is an important security measure designed to 
ensure that individuals who pose a threat to security do not 
gain unescorted access to secure areas of certain maritime 
facilities and vessels. Prior to the TWIC program, there was no 
standard identity verification or background check policy for 
entrance to a port. Today, facility owners and operators can 
look for one standard identification document issued after the 
successful completion of a thorough security threat assessment.
    The identity verification and threat assessment 
requirements of the TWIC program support the DHS multilayered 
approach to protecting the Nation's transportation system and 
enhance security at our ports. Several key objectives, included 
in the SAFE Port Act of 2006, were met during the initial 
rollout of the program in October 2007. These include 
milestones for implementing TWIC enrollment sites, conducting 
security threat assessments, and issuing TWICs.
    On April 15, 2009, U.S. Coast Guard regulation implemented 
the requirement for all unescorted workers in secure areas and 
all mariners to possess a valid TWIC. As of this month, almost 
2 million transportation workers, including longshoremen, 
truckers, and port employees, have received a TWIC.
    This past February, TSA deployed changes to allow TWIC 
holders to receive comparability for the security threat 
assessment when applying for a hazardous materials endorsement 
under a State-issued commercial driver's license. Under 
comparability, hazmat applicants with a valid TWIC can pay a 
reduced fee and do not need to go to an enrollment center; they 
can go directly to their State licensing agency to apply for 
this endorsement. Currently, 11 States and the District of 
Columbia have availed themselves of this capability.
    TSA also recently awarded its Universal Enrollment Services 
contract. This new capability will allow individuals to apply 
for multiple programs such as TWIC and HME at the same 
location, provide enrollment centers across a broader 
geographic range, and allow enrollment for new or future 
programs serviced by TSA.
    On May 31st, 2011, TSA completed the required data 
collection phase of the TWIC Reader Pilot. TSA gathered 
information from 7 ports, 13 facilities, and 4 vessel 
operations that collectively installed 156 readers of various 
types and models best suited to their business needs. These 
sites provided data regarding reader performance and 
reliability as well as throughput data of vehicle and 
pedestrian access points.
    The final report was submitted to Congress February 27th, 
2012. This data provides a clearer picture of the likely 
impacts of using readers at maritime facilities and on vessel 
operations. The TWIC Reader Pilot concludes that TWIC reader 
systems function properly when they are designed, installed, 
and operated in a manner consistent with the characteristics 
and business needs of the facility or the vessel operation.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. McLaughlin and Mr. Sadler 
follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Issa. Mr. Lord?

                  STATEMENT OF STEPHEN M. LORD

    Mr. Lord. Thank you, Mr. Chairman and other members of the 
committee. Thank you for inviting me here today to discuss 
TSA's progress and related challenges in deploying three key 
security programs. My observations are based on a large body of 
work the GAO has completed over the last few years.
    I would first like to note that DHS and TSA have made some 
notable achievements since the 9/11 attacks in securing our 
Nation's ports and airports. And as the TSA witnesses noted 
today, some remaining challenges still exist.
    The first program I would like to discuss today is TSA's 
behavior detection program, also called SPOT. This program 
consists of over 3,000 behavior detection officers that are 
deployed to over 160 U.S. airports. This program is a key part 
of TSA's efforts to focus more attention on dangerous people 
versus dangerous items, which I support.
    Bottom line on the program is, while TSA has taken some 
steps to validate the science behind the program, much more 
work remains to fully validate it, establish sound performance 
metrics, and assess costs and benefits. And as we noted in our 
prior work, all these additional steps could take several more 
years to complete.
    And as we noted in our report on the program, TSA deployed 
SPOT nationwide before determining whether it had a valid 
scientific basis. The good news is, DHS did complete an initial 
validation study in April 2011, which concluded that the 
program was more effective than random screening. However, as 
the study itself noted, it was not designed to fully answer the 
very important question of whether you can use behavior 
detection principles for counterterrorism purposes in the 
airport environment. A scientific consensus on this issue 
simply does not exist.
    Another key report recommendation was to develop better 
performance measures. The importance of this is underscored by 
looking at the arrests made under the program. For example, 27 
percent of the 300 SPOT arrests made in 2010 were illegal 
aliens, raising questions about mission focus.
    The second TSA program I would like to discuss today is 
TSA's body scanner program, commonly referred to as advanced 
imaging technology or AITs. As you know, these scanners were 
deployed in response to the attempted Christmas Day attack of a 
Northwest Airlines flight. About 640 of these units are now in 
place at over 160 airports. According to TSA, these machines 
provide superior benefits over walk-through metal detectors 
since they are capable of detecting non-metallic threat 
objects.
    Earlier this year, we issued a classified report on AIT. 
While most of the details are still classified, TSA agreed to 
allow us to note some of the details regarding the utilization 
rates of these units for today's hearing. We found that some of 
these units had been used less than 30 percent of the day since 
their installation. And the good news is, in response to our 
report, TSA agreed to take steps to address these low 
utilization rates.
    The last program I would like to briefly discuss today is 
TSA's maritime biometric credential program called TWIC. In 
terms of progress, TSA has now enrolled over two million 
maritime workers in the program. However, our 2011 report 
identified a number of significant internal control weaknesses 
in card enrollment, background checking, and use that we 
believe have limited the security benefits of the program. In 
fact, these weaknesses may have contributed to the breach of 
selected U.S. facilities during covert tests we conducted as 
part of this review.
    We recommended that DHS and TSA strengthen program controls 
as well as complete an effectiveness study to clarify the 
current program's contributions to enhancing maritime security. 
DHS has established a working group with executive oversight to 
address our important TWIC report recommendations. We look 
forward to seeing the results of this committee's work.
    In closing, TSA has established a number of security layers 
and programs to thwart potential terrorist attacks. However, 
our past work has identified a number of ways these efforts 
could be strengthened to help ensure American taxpayers receive 
a good return on their considerable investment. I am hoping 
that today's hearing can provide some additional insights on 
how these programs can be strengthened and be made more cost-
effective.
    Mr. Chairman, this concludes my statement, and I look 
forward to your questions.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Lord follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Issa. Admiral?

           STATEMENT OF REAR ADMIRAL PAUL F. ZUKUNFT

    Admiral Zukunft. Good afternoon, Chairman Issa and 
distinguished members of the committees. I am honored to appear 
before you today to speak about the Coast Guard's role in 
enforcing compliance with the Transportation Worker 
Identification Credential, or TWIC, program within the maritime 
transportation system.
    The TWIC program, as envisioned under the Maritime 
Transportation Security Act, or MTSA, of 2002 and strengthened 
by the SAFE Port Act of 2006, requires that all credentialed 
merchant mariners and transportation workers seeking unescorted 
access to secure areas of MTSA-regulated facilities and vessels 
undergo a security check and receive a TWIC. The TWIC is 
currently required for unescorted access to approximately 2,700 
regulatory facilities, 12,000 regulated vessels, and 50 
regulated Outer Continental Shelf facilities.
    While the Transportation Security Administration has 
primary responsibility for the issuance of TWICs, the Coast 
Guard has primary responsibility for ensuring compliance with 
the TWIC regulations. All of the approximately 2,700 maritime 
facilities impacted by the TWIC regulations are and have been 
in compliance since the April 15th, 2009, implementation date. 
The Coast Guard continues to conduct both unannounced and 
announced inspections to ensure compliance. Additionally, the 
Coast Guard has verified more than 213,000 TWICs through a 
combination of visual and electronic means.
    In accordance with the SAFE Port Act, a pilot program was 
conducted by TSA to evaluate the feasibility and technical and 
operational impacts of implementing a TWIC reader system. 
Electronic readers add another layer of security associated 
with the TWIC by providing biometric confirmation of the TWIC 
holder's identity. TSA's report on the pilot program was 
delivered to Congress on February 27th, and the Coast Guard is 
now incorporating the results of the pilot in our rulemaking 
for electronic readers in the maritime environment. This 
rulemaking will apply requirements in a risk-based fashion to 
leverage security benefits and capabilities.
    Additionally, Section 809 of the Coast Guard Authorization 
Act of 2010 amended the original TWIC requirements to include 
only those mariners allowed unescorted access to a secure area 
designated in a vessel security plan. As elements of the Coast 
Guard merchant mariner credential issuance process relies upon 
data received through TWIC enrollment, the provision was 
neither self-executing or easily implemented. Noting such, the 
Coast Guard issued a policy letter in December 2011 to remove 
the requirement to hold a TWIC for mariners currently inactive 
or those serving on vessels that do not require a vessel 
security plan. The Coast Guard continues to work toward 
codification of this change through a rulemaking process.
    A GAO report on TWIC in May 2011 identified a weakness in 
verification of TWICs in the field. In response, we issued 
policy to our field units directing thorough verification of 
TWICs at checkpoints, highlighting that a quick flash of the 
TWIC was not acceptable. The electronic readers deployed at our 
units ensure each person attempting to enter a facility is 
carrying a TWIC. And, to date, we have implemented over 275 
readers to our field units.
    We continue to work with our DHS partners and particularly 
with TSA, as well as State and local agencies, to continue to 
improve the TWIC program for seafarers and other maritime 
transportation workers by balancing a steadfast commitment to 
security while facilitating commerce.
    Thank you for the opportunity to appear before you today. I 
will be pleased to answer your questions.
    Chairman Issa. Thank you.
    Chairman Issa. And as earlier announced, we will now 
recognize the gentleman from Maryland for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today, the Oversight Committee and the Transportation and 
Infrastructure Committee convene to examine measures TSA 
utilizes to secure our Nation's transportation networks.
    In the realm of aviation security, the TSA must achieve a 
delicate balance. TSA must be effective in meeting the evolving 
threats posed by terrorists. We also expect it to be responsive 
to the needs of the public and the demands of commerce.
    Since the terrible events of September 11th, 2001, several 
attacks have been attempted against commercial planes, 
including the attempted bombing on Christmas Day 2009 of 
Northwest Airlines Flight 253 and the attempted bombing in 2010 
of a cargo jet using a bomb disguised as an inkjet cartridge. 
These incidents demonstrate the constantly evolving threats TSA 
must counter.
    TSA's 43,000 transportation security officers must screen 
more than 2 million passengers every day in our Nation's 450 
airports. Although the vast majority of passengers pose no 
risk, these officers must find the equivalent of a needle in a 
haystack.
    In response to the Christmas Day bombing attempt, TSA 
increased its deployment of advanced imagining technology 
systems to screen passengers for both metallic and non-metallic 
threats. More recently, TSA has developed the PreCheck program 
to expedite screening for low-risk travellers, such as members 
of the military.
    I welcome TSA's efforts to develop a more intelligent, 
risk-based approach to transportation security. Recognizing the 
enormity of the challenge TSA faces, as the agency develops new 
screening techniques we must ensure that it strikes the 
appropriate balance between moving too quickly to deploy 
untested or unreliable technologies or techniques and moving 
too slowly to address new threats.
    Today's hearing will also review the Transportation Worker 
Identification Credential. When I served as chairman of the 
Subcommittee on Coast Guard and Maritime Transportation, I 
convened hearings in 2007 and 2008 to review the rollout of 
TWIC. And I thank the Coast Guard for joining us today.
    Unlike many screening techniques TSA uses in the aviation 
realm, Congress mandated what became the TWIC program and 
required that this program be funded by fees collected from 
enrollees. There are now more than 2.1 million enrollees, and, 
by our estimate, these enrollees have paid approximately $280 
million to implement this program.
    To close the security perimeter that TWIC is intended to 
create, we must finally implement the use of readers so that 
these cards are no longer just expensive flash passes. TSA must 
also ensure that TWICs are not issued to ineligible applicants.
    However, we must also view TWIC in the broader maritime 
security context. TWIC is meant to control land-side access to 
secure areas of U.S. ports and secure areas of U.S. vessels. 
There are many risks that approach our ports, particularly from 
the water side, that TWIC was never intended to address. None 
of the individuals on the estimated 17 million small boats 
operating in our waters are required to carry TWICs, and none 
of the foreign mariners on the more than 9,000 foreign-flagged 
vessels calling on U.S. ports carry TWICs.
    Our first and most critical line of maritime defense, our 
thin blue line at sea, is the Coast Guard, which must defend 
our coasts, rescue thousands at sea, respond to marine 
casualties and oil spills, intercept drugs and migrants, and 
enforce security requirements at 2,500 facilities and on nearly 
13,000 vessels regulated by the Maritime Transportation 
Security Act.
    This service of 42,000 active-duty officers and members do 
all of this on a budget of less than $10 billion per year, less 
than 2 percent of the DOD's base budget. And they now face 
additional cuts and the loss of up to 1,000 active-duty slots 
in next year's budget.
    The Coast Guard does all that we ask of them to do. 
However, we cannot continue to stretch the service and assume 
that it will never break or that gaps will not open in our 
maritime security.
    With that, Mr. Chairman, I yield back, and I want to thank 
you for your courtesy.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. We have also been joined by the chairman of 
the full Transportation Committee, and I now recognize him.
    Mr. Mica. First of all, thank you so much, Chairman Issa, 
and to your committee, Government Reform and Oversight. I am 
honored to co-chair this hearing with you. I am sorry there was 
a little bit of a delay getting back here today, but pleased to 
be with you. And I thank you for your leadership on this.
    This is a very important agency that we have joint 
responsibility over. Our committee has some limited oversight 
responsibility. Under Transportation, as you may recall, 
historically, TSA was created. I happened to chair the 
Subcommittee on Aviation in 2001 after the horrific terrorist 
attacks.
    Since that time, TSA has grown from 16,500 screeners and a 
small cadre of different transportation security activities 
which we joined together. It was a much smaller beginning, and, 
unfortunately, TSA has mushroomed to 65,000 employees, of which 
there are 14,000 administrative personnel--4,000 in Washington 
and 10,000 out in the field.
    We never intended it to mushroom to this size. And, as you 
know, I have been critical particularly of the administrative 
cost. Even with the administrative cost, we might be able to 
endure that kind of expenditure, which has now grown to $8 
billion, if it meant we were secure. But instead, as this 
committee report today reviews, we have a number of programs 
that are so far behind.
    One that I would like to talk about is the TWIC program, 
Transportation Worker Identification Card. We have spent 
hundreds of millions of dollars, and it is still in limbo. Some 
of the equipment that has been purchased does not do the job. I 
know we can't talk about all of it here in this open setting. 
But the deployment and acquisition of expensive equipment that 
is supposed to protect us, which wasn't properly tested, 
vetted, and the deployment could have probably have been done 
better by a high school class project.
    TSA has had five Administrators in 9 years. We had a period 
under the Obama administration in which we had no Administrator 
for almost a year. It is difficult enough with an agency like 
TSA or any other Federal agency to operate with an 
Administrator in Washington, let alone not having an 
Administrator for that period of time.
    I have other concerns, having monitored this as closely as 
anyone in Congress. We are still at risk; the Nation is still 
at risk. Unfortunately, even the layered system--and TSA will 
talk to you about a layered system. Almost every layer is just 
flawed. The behavior detection, which I worked with previous 
Administrators to put in--when we had equipment that didn't 
work, TSA again bought equipment that didn't work. Just 
following that equipment, the puffers--and I have had my 
investigative staff follow that--they sat and we were paying 
rent on them on a vacant--I am sorry, in a warehouse that then 
they spent $600, I think, per piece of equipment. They told us 
that DOD had them destroyed, but only after we prompted the 
action.
    Sent investigators down to look at another--jointly, we 
sent them down to look at another warehouse we had gotten 
information that was full of equipment, some of it purchased, 
some of it should have been deployed, some of it sitting there 
at great taxpayer expense for a long time paying rent on it.
    And then the nerve to cause us to delay--and I might even 
ask if we can't get the information to subpoena it--when we 
were informing TSA that we were sending our investigative staff 
there, to delay our staff and investigation by a week so trucks 
could come up and haul this stuff away, even some as our 
investigators were appearing on the scene.
    It is just a very expensive and disappointing operation. I 
have had faith in Administrator Pistole. He promised reform. He 
has told the committee he would reform the agency. And I don't 
see that happening, unfortunately.
    But that is just the highlights, Mr. Chairman. It is just 
important that we get to the bottom of this. There is a lot of 
hard-earned taxpayer money going for, unfortunately, theater 
security, not real security. And we have to stop paying that 
price before we pay a huge price with another successful attack 
by terrorists.
    I yield back the balance of my time.
    Chairman Issa. I thank the gentleman.
    I will now recognize myself for 5 minutes.
    I have the advantage of knowing your bios. You may not know 
mine, but I spent nearly 3 decades in security. And the one 
thing I know about security is, there are two types. There is 
the type that convince people that your target is harder than 
somebody else's. In other words, I can't protect all cars, but 
I can make the crook choose to steal the car next to the one 
protected by Viper. That is what I would say you have as a 
system here today.
    You, in fact, have a series of hardenings. They work 
sometimes. And I am speaking particularly about in the 
aviation. These programs certainly seem to be good programs. 
And in every case, as the wind blows through the screen, those 
spots clearly will at times stop targets. But targets, 
particularly terrorist targets, are in fact exactly like you 
would expect: They are mobile, they are responsive.
    If we do not have a layered security system that has a 
sufficient force to at least be like the hull of a ship, 
Admiral, one in which we know there will be a few leaks that 
you have to pump out but for the most part it is watertight--
our security system today is clearly not watertight.
    The accidental catching of the bad guys belabors two 
points: one, the many people who in fact find themselves, like 
most of us on the dais, going through security and sometimes 
they have us pull something out, sometimes they don't; 
sometimes they do a secondary, sometimes they don't.
    I am going to give you just a couple. We opened up this 
hearing to Facebook. I am just giving you anecdotal ones, but I 
will supply all of them. I will place them in the record, and I 
will also supply all of them to you so you can respond to the 
individuals in their entirety.
    But, for example, Joe Carica. He is a U.S. Marine. He was 
flying in his Dress Blues ``D'' uniform. He was forced to 
remove his trousers in full view of passengers because his 
shirt-stays beneath them were scaring a TSA employee. It didn't 
matter that he explained what it was, and it didn't matter that 
they were something that he undoubtedly had seen many times 
before if he were a veteran. Of course, you and I all know that 
the turnover at TSA is high and the training is seemingly 
perpetual.
    The next one is from Reagan Shea, who says, ``I am a 
disabled person and have been targeted for groping. My wife 
travels with a portable oxygen concentrator, and her use of the 
machine means she get pawed by hand every time we travel.''
    Julia Rachiele: ``The TSA has taken away my freedom to 
travel because I wear a medical device and cannot go through 
the amount of radiation I would be subjected to. As a result, I 
get an enhanced pat-down procedure every time.''
    Lastly--and there are plenty more; there are over 350--``I 
am Wendy. I have worn an artificial leg since I was 4. I am now 
61. I used to travel a lot for my work but gave up traveling 
after being assaulted by TSA constantly, even to the point of 
having my breasts checked instead of my leg prosthesis.''
    First question I have for the panel, and particularly for 
the aviation side: There are 65,000 to 67,000 TSA workers, men 
and women who are trying to do a good job. A quarter of them 
are employed in administration.
    First question for you is, do you think that is a fair 
ratio of administration? Or do you think you are, in fact, a 
bloated, bureaucratic organization that has a lot of people 
working on a lot of systems that ultimately, after procurement, 
don't work?
    Mr. McLaughlin?
    Mr. McLaughlin. Sir, I will respond to that. First of all, 
thank you for recognizing the very hardworking men and women of 
TSA. Our folks in the field are working hard every day to keep 
all of us safe as we travel.
    I will have to take for the record the ratio for 
administrative to frontline personnel. I think it might be 
different from that, but I will get back to you.
    Chairman Issa. Well, I will give you one--I travel, 
obviously, to a number of places--Houston, Sacramento--but San 
Diego and Dulles are my two majors. I can tell you that I 
periodically count, and for 4 active checkpoints in San Diego 
there will be as many as 35 people in blue standing there.
    So even if your administrative count were not one in four, 
wouldn't you agree, based on your own observations, that the 
amount of people directly at a checkpoint versus the total 
number would seem to be extremely high? In other words, you 
haven't created any efficiency in the 10 years of your 
existence.
    Mr. McLaughlin. Well, certainly, I don't agree with that. 
TSA is working hard to provide the most effective----
    Chairman Issa. Well, let's go through the numbers, though, 
quickly. Because I am really on overtime, and I will make it up 
to the ranking member.
    There are four times as many TSA employees as there was 7 
or 8 years ago, correct?
    Mr. McLaughlin. Again, I don't believe----
    Chairman Issa. In 2002, 16,000 in your initial 
authorization, so you had less than that. By 2005, you were 
still below 35,000. You are now over 65,000. In the last, let's 
say, 5 years, when you have more than doubled in numbers, have 
the American people seen shorter lines? Yes or no?
    Mr. McLaughlin. I do believe that the American people have 
seen shorter lines in the last 4 or 5 years.
    Chairman Issa. Yeah. Well, with that, I would like you to 
check your figures. The fact is, they haven't seen shorter 
lines. I fly to enough airports to tell you that, in fact, you 
are not giving shorter lines. You are taking longer for each 
one and using more people.
    With that, I would recognize the ranking member for his 
questions.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    TSA recently completed the reader pilot test required by 
the SAFE Port Act. And as I mentioned in my opening statement, 
I believe that to maximize the security TWIC can provide, we 
must move to implement the use of the readers.
    Assistant Secretary Sadler, TSA was responsible for the 
recent reader pilot test. And, Admiral Zukunft, the Coast Guard 
is responsible for promulgating the final reader rule. Let me 
ask both of you this: Will it be technically feasible for 
facilities to install readers that can quickly and reliably 
read TWIC cards without impeding the flow of workers into ports 
and to the secure areas of vessels? And by what date do you 
think the installation of the readers can realistically be 
achieved?
    And I think we have been--it seems like we ought to be able 
to get this done, gentlemen, some kind of way. We have been 
messing around with this for a while.
    Oh, come on, some of you, one of you. Admiral?
    Admiral Zukunft. Ranking Member, I would be pleased to 
answer that.
    As you know, we have embarked upon the rulemaking process. 
Getting to a final rule, before we do that we really need to 
adjudicate the comments. So that would be very informative to 
answer that very question, with the objective of not impeding 
commerce.
    There are over 32 recognized commercial-off-the-shelf TWIC 
readers. We expect one of the concerns will be, you know, 
whether you use a mobile system or whether it is a fixed system 
that would be at a container terminal. But we would envision 
approximately a 2-year period of time from the time a final 
rule was on the street to full implementation across industry.
    Mr. Cummings. Mr. Sadler, do you have a response?
    Mr. Sadler. Yes. I think, sir, during the pilot we did show 
that when the readers were installed properly, the people who 
worked in the facilities were trained properly, and the workers 
were assimilated to the cards and the use of the cards with 
those readers, that they did work properly. They did not impede 
the flow of commerce in those particular ports.
    But it does depend on the installation, it does depend on 
the training, and it does depend on whether the facility has 
picked the right reader for its business need.
    Mr. Cummings. Okay.
    Admiral Zukunft, the GAO reported that its employees were 
successful in accessing ports using counterfeit TWICs--
authentic TWICs acquired through fraudulent means in false 
business cases.
    Let me ask you this. I want you to clarify that individual 
ports still have the authority, and indeed the responsibility, 
to deny admission even to those who have valid and authentic 
TWICs if they have no business on the port property. Is that 
correct?
    Admiral Zukunft. That is correct.
    Mr. Cummings. And, that said, what steps has the Coast 
Guard taken to address the GAO's findings? And, additionally, 
do you think the use of readers will help close these security 
gaps?
    Admiral Zukunft. Ranking Member, I do. We have issued 
policy guidance to our field units. To date, they have been out 
in the field screening, doing spot checks. We have done over 
200,000 of these spot checks. In a 2-day period alone last 
week, we ran over 450 spot checks. And out of those 450, we did 
find 58 members who had no rightful business being at those 
particular facilities.
    We engage extensively with our stakeholders through our 
security committees and certainly the facility owners. They are 
interested, first of all, in those who may have criminal 
intent, which is one of the slices of information that TWIC 
provides. And on a steady basis, that pool of 2 million TWIC 
card holders are being screened against the terrorist screening 
database. So there is realtime information but also a benefit 
to the facility owners as well.
    Mr. Cummings. Yeah, TWIC is the only part of our maritime 
security regime that--and that is very significant. The Coast 
Guard is and will remain the most important element of that 
regime, but the strains of budget cuts on the service are 
obvious. For example, in 2010, 10 of the 12 cutters deployed to 
respond to the earthquake in Haiti suffered significant 
problems, and 2 had to be taken out of service and sent in for 
major repairs. Is that right?
    Admiral Zukunft. I was intimately involved with that 
response, Ranking Member, and that is true.
    Mr. Cummings. And in February of this year, the GAO issued 
a new report finding that, in part due to a lack of funding, 
the Coast Guard does not have any fully operating interagency 
operating centers, though these were required by the SAFE Port 
Act to be established by October 2009.
    Similar to the GAO, the DHS inspector general and others 
have noted the Coast Guard's inability to meet safety and 
security mission requirements in the Arctic as the ice cover 
opens to allow more shipping operations in those latitudes. 
Nonetheless, the President's budget proposes extensive cuts 
both to the Coast Guard's end strength and its capital account. 
No funding was requested for the acquisition of the National 
Security Cutter 7 or 8. And this budget will conclude the 
acquisition of the Fast Response Cutter at a number 
substantially below the approved program of record.
    Finally, this is my last question. While I know that the 
Coast Guard strives to meet every mission requirement, can you 
comment on the challenges the service is facing in balancing 
its competing mission needs, particularly in the maritime 
security arena, in light of the significant budget constraints?
    I have always complained about the Coast Guard not having 
enough money. I am just trying to figure out how you are going 
to do all the things you have to do, particularly since 9/11, 
with regard to the budget cuts.
    Admiral Zukunft. I would be pleased to, Ranking Member 
Cummings.
    I was involved in the Deepwater Horizon oil spill. I was 
the Federal on-scene coordinator for over 7 months. And the 
President directed that we triple our response effort.
    The Coast Guard has no force in garrison; we are constantly 
doing frontline operations. And so we had the good fortune, if 
you want to call it that, where we didn't have another 
contingency occurring at the same time as Deepwater Horizon, so 
I was able to redeploy buoy tenders from Cordova, Alaska, to 
Honolulu and marshal all of those resources into the Gulf of 
Mexico. We were able to do the same during the earthquake in 
Haiti, even though some of those ships did have maintenance 
challenges, and we did the same during Hurricane Katrina.
    So the challenge we face in the maritime security domain 
is, what if we have multiple threats? What if we have a 
hurricane and then we have a threat to national security taking 
place concurrently? And that is where we really run into 
resource challenges, because we have to reallocate resources 
from one mission to another. And we are at risk because we 
don't have the resources to do both.
    Mr. Cummings. Thank you very much.
    Chairman Issa. I thank the gentleman.
    We now recognize the chairman of the full committee, Mr. 
Mica, for 5 minutes.
    Mr. Mica. Well, first of all, my friends at TSA and other 
witnesses, since my last hearing, which was with the 
Appropriations subcommittee--I am not a member of that 
subcommittee but was allowed to ask questions, as we have 
extended to others who are not on our committee. And----
    Chairman Issa. We recommend that system to all committees.
    Mr. Mica. Well, yes. And the funny thing about that is, Mr. 
Chairman--and I won't allow this to take away from my time, but 
I have to put this caveat in. TSA found out that I would be a 
witness, so they sent Mr. Pistole an email. The email said, 
``Mr. Mica is going to be there, so when he asks a question, 
Mr. Pistole, take a long time answering it so you eat up his 
time.'' The problem is that they--again, sometimes you think it 
is the gang that can't shoot straight, but they shot the email 
to CQ. I think that was the publication.
    So, again, reserving my time, if you would answer fairly 
briefly and not use the directive of that memo. One of my 
concerns, of course, is the Transportation Worker 
Identification Card. We have spent over a half a billion 
dollars, is that correct? Yes or no? Mr. McLaughlin? Mr. 
Sadler?
    Mr. Sadler. I will take that one, sir. To date----
    Mr. Mica. I have $511 million spent.
    Mr. Sadler. To date, on the program itself, we have 
expended approximately $374 million.
    Mr. Mica. But I have $511 million.
    Mr. Sadler. You may be including grants in that. I would 
have to go back and check that number.
    Mr. Mica. Well, we wouldn't want to leave any--I mean, I 
consider that as an expenditure, money spent. All right, well, 
we will say in the neighborhood of a half a billion.
    And the card is supposed to allow us to identify who goes 
into our ports. We passed the law setting that requirement up 
back after 2001, right, Mr. Sadler? Who wants to answer?
    Mr. Sadler. I believe that was required by the MTSA of 
2002.
    Mr. Mica. 2002, after 2001. Thank you.
    They have produced--1.9 million of the cards are active, 
printed 2.1 million of them. We still do not have all of the 
components that were required under the law, including iris and 
thumbprint, as far as biometric capability, do we, Mr. Sadler?
    Mr. Sadler. We have the capability to include an iris on 
the chip of the card.
    Mr. Mica. But you do not have a standard for iris, right?
    Mr. Sadler. That is correct. NIST has just put out a 
proposed change to the standard to include iris.
    Mr. Mica. Again, I just have to go back because this is not 
going to be Groundhog Day, but I had a hearing April 14th, 
almost a year ago, and the director of the NIST Information 
Technology Lab testified. And I have the questions here. ``When 
will you finish the iris capability?'' ``Draft publication will 
be''--this is last year--``hopefully before next week.'' ``And 
when will you finish the final standard?'' ``By the end of the 
year.'' That was last year.
    Now, I was told at the beginning of the year it might be, 
what? This summer? Is that what you have heard?
    Mr. Sadler. No, sir, I haven't gotten a time for when the--
--
    Mr. Mica. So don't have a time. They told us this summer. 
So we are now going into our ninth year.
    Now, it is great that we produced these TWIC cards at great 
public expense, a half a billion, but then I read that you are 
still in a pilot reader program. So, basically, we have 1 
million of these cards and we don't have readers; is that 
correct?
    Mr. Sadler. Well, just to go----
    Mr. Mica. Do the ports have readers?
    Mr. Sadler. --just to go back a second----
    Mr. Mica. Do the ports have readers?
    Mr. Sadler. --there is a fingerprint template on the chip 
of the card.
    Mr. Mica. Do the ports have readers?
    Mr. Sadler. Certain ports do have readers. And we have 35 
readers that are----
    Mr. Mica. Do we have----
    Mr. Sadler. --on our approved products list that the ports 
can use.
    Mr. Mica. How many of the ports would have readers, and how 
many of these cards are able to be read?
    Mr. Sadler. Well, we know----
    Mr. Mica. As a percentage.
    Mr. Sadler.--we know that the pilot ports have readers. I 
don't know the number of ports outside of the pilot ports that 
have readers. I do know the Coast Guard has----
    Mr. Mica. Staff, can we insert in the record at this time 
the very small number of ports that in fact have readers? And 
we don't----
    Chairman Issa. Without objection, so ordered.
    Mr. Mica. Thank you.
    Behavior detection, let me go into this. And I am just 
going to take 1 more minute, because I had to----
    Chairman Issa. Without objection, so ordered.
    Mr. Mica. Behavior detection program, we have spent a 
billion dollars on it. Can someone--can someone say that that 
is correct?
    Mr. McLaughlin. Sir, I believe that number is slightly 
below that, but we will get back to you for the record.
    Mr. Mica. Okay. All right.
    And I also--I asked--when I knew that the puffers didn't 
work, that they had bought and told me that they would work, 
and actually went up and had them tested, went through, every 
time it didn't detect some trace elements that were put on me, 
I was told it was just a technical problem. And we just 
destroyed those; is that correct? We paid $600 a piece to 
destroy the puffers; is that correct?
    Mr. McLaughlin. I believe that is correct.
    Mr. Mica. I don't even want to know how long they sat in 
the warehouse, and then they had DOD destroy them. But getting 
something else in place because the technology didn't work, and 
you all have seen the classified reports on the performance of 
the advanced imaging technology equipment, have you not?
    Mr. McLaughlin. Yes.
    Mr. Mica. So we know by that performance and the lack of 
performance of what we have seen with the puffers, that 
behavior detection is very important and others use it 
successfully. The problem is GAO reviewed the performance and 
said that 24 times, 17 known terrorists went through airports, 
passed TSA, and they have yet to detect one terrorist. And that 
was actually a question that was submitted by one of the 
Floridians we had open question online that we allowed people. 
Can you name any terrorists that you have actually stopped in 
the program?
    Mr. McLaughlin. We are not aware of any terrorists 
transiting a checkpoint where BDOs were actively working. While 
we accept GAO's comments that there were 24 instances in SPOT 
airports, we do not know that BDOs were working at the time 
that those individuals came through, number one. And number 
two, we know, in hindsight, they were not operational, so they 
were not exhibiting signs of stress, fear, or deception.
    Mr. Mica. Thank you.
    Mr. Lord. May I comment on that?
    Chairman Issa. Yes. The gentleman's time has expired.
    Mr. Lord. I am the GAO representative. I think our point in 
the report was to study the travel patterns that people 
associate with terrorists to see if they were exhibiting any 
SPOT behaviors. At this time, I don't believe it is known 
whether they were exhibiting behaviors or not. And we made that 
recommendation in the spirit of improving the program to 
develop better performance measures. We suggested reviewing the 
videotapes; we thought that would be a rich source of 
information to help refine the program.
    Mr. Mica. At this point, Mr. Chairman, I will also ask 
unanimous consent to put in the record, we went up and looked 
in Boston of where they have a demonstration project, and I 
think there is still one in Detroit, and we saw unbelievable 
configuration.
    Chairman Issa. Without objection.
    Mr. Mica. And we want to detail our findings, which we also 
passed on to the administration.
    Chairman Issa. Without objection that will be placed in the 
record.
    And I now go to Mr. Boswell, a gentleman who I served with 
on the Select Intelligence Committee, who more than anybody 
here on the dais today knows what the special skills are 
necessary to read somebody who may be a terrorist. And the 
gentleman is recognized.
    Mr. Boswell. Thank you, Mr. Chairman. You may have 
overstated that a little bit but nevertheless.
    Chairman Issa. No, I remember our times behind closed doors 
very, very well, and you were truly the senior statesman there 
on that issue.
    Mr. Boswell. Very, very kind, and I appreciate it. First 
off, I want to start with a positive remark. We stood up what 
we do, Mr. Chairman, is going to be a pretty humongous agency, 
as we started out with the need we had and the situation that 
caused it. And I would like to compliment the courtesy and the 
efforts that people starting new careers, if you will, have 
demonstrated.
    The one thing that amazes me, and it is not rocket science, 
and I have been waiting and waiting and waiting; I was really 
pleased to see we could realize we could push the air crews 
through a little quicker and not delay things. There are a 
number of us here, myself included, that held probably as high 
a clearance as one can get for years, but I still am checked as 
if I were suspect of walking through the same airport, time and 
time and time and time again.
    I know there are some people that have a malady because of 
things happened in the service. And there seems to be no effort 
to recognize that, my gosh, they have had a background check, 
top secret, top secret crypto, so on and so on. Do you have any 
intention to ever try and take advantage of that and expedite 
things a little bit, or are you going to keep on doing it like 
you have been doing it?
    Mr. McLaughlin. Sir, actually, the answer to that question 
is we are actively engaged with a number of different groups to 
try to expand our PreCheck population. Again, PreCheck is the 
program that is allowing expedited screening for individuals 
that are qualified, either today in pilot phase because they 
are part of frequent flier program or they have opted in 
through CBP's Global Entry.
    We extended the program to active duty military traveling 
out of Reagan National airport. That started last week.
    And we are exploring other groups that we can work with.
    Mr. Boswell. Well, I understand the active military, and 
you know, people like Mr. Issa and myself and others, you know, 
took off the uniform one day and did work the next, but the 
history is still there.
    Mr. McLaughlin. We are actively looking at that.
    Mr. Boswell. What is your timeline for active on this? 
Seems like simple, straightforward; the record is either there 
or it is not. The case that I know of, at least I can speak for 
myself, I know the record is there.
    Mr. McLaughlin. There are two aspects, really, that we 
focus on.
    One is, to your point, if the record is there, and then two 
is our ability to reconcile that at the checkpoint. So there is 
a technology piece that allows us to verify that someone is who 
we believe they are.
    We started this process in the fall of last year, and 
already, in just March, we are up over 600,000 participants in 
the program. So I think we are working quickly to expand the 
program, but we are doing it also cautiously to make sure that 
we are maintaining security every step along the way.
    Mr. Boswell. I appreciate that, but I still just don't 
understand why you can't take--it is like discovering the wheel 
all over or passing up the fact that we have spent a lot of 
money in the past on doing background checks on a number of 
people, and it is just like it never happened.
    How many years have been going on now that we have been 
doing this? And it seems like you have had time to proceed a 
little bit further along the way. But, again, I want to leave 
and stop on a positive note. I think that the personnel are 
courteous, work hard and are sincere and are following the 
rules that the administrators gave them to operate by.
    I just think we could do a little bit better. I do 
appreciate the fact we don't have to leave pilots and air crews 
standing in line as we did for some time. I thought that would 
probably get solved, but we are leaving a lot of other people. 
It takes up time. It clogs up the process when it could be a 
pretty simple identification. Most of us that have spent time 
in the service have even got a printed ID card that says we 
served 20-plus years, and a lot of information on there, seems 
like it could be used.
    Thank you very much, Mr. Chairman.
    I yield back.
    Mr. Farenthold. [Presiding.] I see I am up next. So I will 
yield myself 5 minutes.
    First off, I would like to thank you all for taking the 
opportunity to be here. I think I am in the unique position of 
being the one Member of Congress who actually serves on all 
three committees that has jurisdiction over the TSA: Government 
& Oversight Reform Committee; the Transportation Committee; and 
Homeland Security. So I actually spend a whole lot of time with 
this issue, as well as quite a bit of time traveling and 
experiencing the service of the TSA.
    I would like to say the vast majority, I would say almost 
without exception, but there are exceptions, the TSA employees 
that I have encountered in my travels have all been courteous 
and professional in nature.
    However, as part of preparing for this, just like Chairman 
Issa, I opened up my social media sites to comments with 
respect to experiences with the TSA, and I received quite a few 
negative comments as well.
    And without objection, I would like to get those entered 
into the record as well. So ordered.
    Mr. Farenthold. I do want to talk about some of the 
problems that people have reported with the TSA. I understand 
we are in a situation where it is a stressful environment for 
many people traveling. The TSA is squeezed into spaces in 
airports not designed for the level of screening, but if you 
look at some of these instances, and we had one in the news 
just last week of the gentleman in the wheelchair being patted, 
it seems like at some point if we could just use some common 
sense and slow down a little bit and offer to do some of these 
screenings in a private area or in a screened-off area. And 
maybe it is worth spinning a little effort on creating spaces 
that are a more friendly to that; we might be able to do better 
there. I just encourage both the TSA and the traveling public 
not to get worked up. I think there are some better ways to do 
this.
    I did want to talk a little bit about the SPOT program. I 
am concerned how effective behavioral detection program is with 
the limited amount interaction there is between the TSA agents 
and the general public. About 6 months ago, I think I commented 
in one of these hearings that I could get through the entire 
airport without uttering a word other than ``thank you'' to 
anybody: Check in at a kiosk; hand my stuff to the TSA; hand my 
stuff to the gate agent. Now at least the TSA is at least 
asking me for my full name.
    It seems like SPOT would be better off if there was a 
little bit more engagement.
    Mr. McLaughlin and Mr. Sadler, would you like to comment on 
that.
    Mr. McLaughlin. Thank you. First, if I could, just for 
everyone's awareness, every passenger that travels through 
checkpoint is entitled to private screening upon request. We 
want to make sure that we honor that commitment.
    Mr. Farenthold. It might be something you consider 
offering, especially to the elderly and disabled and children.
    Mr. McLaughlin. Sure. And with regard to the video from 
last week, that was actually a video that was over 2 years old. 
And with the policy changes that we put in place last fall, 
again, we have seen a traumatic decline in the number of times 
where we have had to pat down children and now the elderly with 
our new program.
    With regard to SPOT and your question, sir, I agree with 
you that our SPOT program in its current form is largely an 
observation program where our officers are trained to observe 
signs of fear, of deception, and of stress that are different 
than the general traveling public----
    Mr. Farenthold. And Mr. Lord, there is no way to really 
test that, because you can't imitate those behaviors. Is that 
correct?
    Mr. Lord. While the behaviors can be imitated, as in any 
deterrence program, it's effectiveness is difficult to 
evaluate.
    Mr. Farenthold. I apologize, I am going quickly because of 
time. What is the roll out schedule nationwide for TSA? I 
dusted off my Global Entry card because I am looking real 
forward to being able to use that.
    Mr. McLaughlin. We have, the administrator and the 
Secretary announced I think in February that we intend to roll 
out to the 35 busiest airports by the end of this calendar 
year. And so far, we are on target for that. As of last week, 
we are at 11 airports, and we continue to roll out a couple 
airports a week and will begin adding additional airlines as 
well.
    Mr. Farenthold. Mr. Lord, I know you spend a fair amount of 
time studying what the TSA does, and I have also had access to 
some of these classified reports to a level that I am a little 
bit concerned. But I wanted to ask you, do you see some things 
that we are not doing that we should be doing to increase 
security? I know that really isn't something specifically you 
study, but you all spend a lot of time looking at what they are 
doing and how.
    Mr. Lord. I can't think of anything off the top of my head. 
We completed a large body of work on various layers of TSA's 
security programs. All of our reports include recommendations 
to improve things, so we think we are having a positive impact 
on the programs, and TSA has been very receptive to most of our 
recommendations.
    Mr. Farenthold. I see I am out of time. Hopefully, we will 
get to a second round of questions. I will now recognize Mr. 
Connolly, the gentleman from Virginia, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you all 
for being here today.
    I think we need to start, as our colleague Mr. Boswell did, 
positively recognizing the extraordinary difficulty of the 
mission here. In a free society, how do we graft on to that 
protective and necessarily often intrusive measures to protect 
the public, after tragedy of 9/11 especially? In a democracy, 
frankly, it seems to me we ought to be arguing about this all 
the time, because I don't think we should ever get complacent 
about either side of this, my right to privacy and my right to 
be protected, and the role of government in fulfilling that 
mission.
    So I think it is a natural tension and not necessarily 
always a reflection on the men and women who are trying to 
fulfill this mission.
    And my observation thoroughly is that the men and women who 
have been recruited to fulfill this mission are actually doing 
on balance, a very good job. And many of them are very 
professional in their approach to the public. But as the 
chairman indicated and Mr. Issa indicated, our committee chair, 
there are, however, occasions where that is not the case.
    And one thing I just commend you, Mr. McLaughlin, and you, 
Mr. Sadler, a simple training in ``please'' and ``thank you'' 
would really go a long way with the public. I wish I could say 
everybody remembers that, but we are not cattle, and we are 
citizens, and we are not to be presumed guilty of anything. And 
barking orders like people are cattle is not appropriate. And I 
would urge you strongly to make sure--I know it seems simple, 
but it gets on the traveling public's nerves, and it undoes a 
lot of the wonderful work otherwise being done by the employees 
of TSA.
    So, once in a while, there are people who just, I don't 
know, they don't feel they need to do that or they are giving 
orders. And what we are really trying do here in a free society 
is to get compliance. And most of the public I think actually 
understands that and is willing to tolerate the fair amount of 
intrusiveness, more than I would have guessed actually, but 
they do expect to be treated with respect.
    So I think so long as we can do that in the training of our 
men and women, I think we would also go a long way to enhancing 
the compliance, understanding we are all in this together.
    Mr. Lord, last year, TSA ranked 232 out of 241 Federal 
agencies and entities in the Partnership of Public Services 
Best Places to Work. In other words, it was in the bottom 5 
percent of Federal agencies as, yeah, I would love to work 
there. And it ranked second to last for pay, family-friendly 
management policies and performance-based incentives. Would you 
comment?
    Mr. Lord. I am aware of that survey. First, I would like to 
comment that GAO consistently ranked near the top. I believe, 
last year, we were second.
    I saw the scores for DHS and TSA. I think some of that 
reflects, they have a very large screening workforce that does 
a somewhat stressful job. They are interacting with the public 
on a day-to-day basis, and sometimes that is stressful. It 
wasn't clear to me, though, what the department was doing about 
it on an organizational wide basis.
    Mr. Connolly. We are going to give them an opportunity to 
comment on that. But are you familiar with the turnover rate 
last year?
    Mr. Lord. Not specifically.
    Mr. Connolly. Would it surprise you for me to tell you that 
it was 13 percent?
    Mr. Lord. If that is accurate, that would not surprise me, 
no.
    Mr. Connolly. And it has been 10 percent for at least the 
last 5 years and that that is significantly higher than the 
average of Federal agencies?
    Mr. Lord. Any time any organization experiences that type 
of turnover, obviously, you are dealing with some--it imposes 
certainly challenges----
    Mr. Connolly. Given the sensitive nature of the mission, 
the security mission, should it concern us, in your opinion, 
that we have low morale and high turn over, and that that 
actually could--in theory, could affect the performance of the 
mission?
    Mr. Lord. I am not sure what the root causes are.
    Mr. Connolly. Well, putting aside causes, just those facts, 
would that not suggest it could compromise the mission, that we 
are less than enthusiastic about carrying out the mission or 
less than caring about it because I don't even like being here. 
I don't like my boss or I don't like the policies of the 
agency. What I am worried about is, in addition to the men and 
women who are suffering that low morale, what is the impact on 
the traveling public in terms of their carrying out their 
mission?
    Mr. Lord. That would concern me as a TSA executive.
    Mr. Connolly. Mr. Chairman, I won't ask any more, but if 
you would wouldn't mind allowing Mr. McLaughlin and Mr. Sadler 
to respond.
    Mr. Farenthold. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. McLaughlin. Thank you.
    First of all, to your comment about training, I am pleased 
to let you know that earlier this year, we began a training 
initiative that we are referring to as PACOM. And that 
initiative is a training that all TSA frontline employees and 
their managers in the field will go through, which focuses 
specifically on active listening skills, on empathy, as well as 
on a communication technique that hopefully will improve that 
experience; the caveat being that airports are very busy and 
loud places, and sometimes it is hard to balance the need to 
communicate in a way that is heard without being overheard, so 
to speak.
    My numbers with regard to attrition----
    Mr. Connolly. If I could interrupt you. There is a 
difference between, ``please put your hands up,'' you know, in 
the machine versus ``put your hands up.''
    Mr. McLaughlin. Agreed and that is what this training 
addresses specifically.
    Again, we are on target to get that training complete for 
managers and supervisors by June of this and for the entire 
frontline staff by December of this year.
    The numbers that I have for attrition are 6.1 percent for 
full timers and then 18 percent for part-timers. So while we 
are concerned about the part time number, the overall number 
that I think you have might be skewed somewhat by that data.
    With regard to what we are doing to improve our standing in 
the best places to work, and I can tell you from personal 
experience, first of all, being an employer in both the private 
sector and now in Federal service, having worked with thousands 
and thousands of employees, I will tell you that I am very 
proud of the dedication of my workforce and their commitment to 
the mission.
    I think, overall, their focus on the mission is not 
consistent with the rating that we received in the best places 
to work. That being said, we have a number of initiatives as we 
move forward to improve the overall morale. We have national 
advisory councils. We have trainings, like the ones that I 
described, where feedback from officers are--literally one 
officer described it as life-changing event for her in terms of 
her understanding of her role and how she could interact better 
with customers, which has an impact on morale.
    And then I would also say some of it just comes with the 
newness with our agencies, an agency that is less than 10 years 
old or just now 10 years old is going to have a different 
growth curve than a Federal agency that has been around for 50, 
100 or even 200 years.
    Mr. Farenthold. Thank you very much. We will now proceed to 
another expert in the field, the gentleman from Minnesota, 
former airline pilot himself, recognize Mr. Cravaack for 5 
minutes.
    Mr. Cravaack. Expert? I don't now about that. End user, 
yes, definitely.
    I just have a couple of questions. And I thank everybody 
for coming here today because I think everybody wants the same 
issue, wants safety in the air, and make sure our people that 
are working with us are happy and do their job efficiently and 
effectively.
    And thank you for the Coast Guard and all the things your 
men and women do for you, Admiral.
    I would just like to talk about a couple of things. Joe 
passenger walking through my first level of security; I am 
going to go through SPOT. I see SPOT developing probably into 
something more of what we see in Amsterdam, Israel, going 
through more proactive challenge-reply, taking a look at 
behaviors. So I see that developing. Right now, it is not a 
totally effective tool, but let's just deal with the now if we 
may.
    So we hit SPOT as we head on to the screening area. Go to 
the screening area, and Mr. Lord, you said 30 percent are used 
by AIT machines; is that correct, 30 percent of the passengers 
going through?
    Mr. Lord. It is--yeah, according to Mr. McLaughlin, that is 
correct.
    Mr. Cravaack. We found that some AITs were used less than 
30 percent of the time, as highlighted in my prepared 
statement. So 30 percent of the passengers are going through 
the newer, more improved AIT machines. Would you consider, as 
much as you can within this arena, are the AITs 100 percent 
absolute? Are they foolproof?
    Mr. Lord. I can't discuss any of the details, but in 
general, any technology has limitations.
    Mr. Cravaack. We all have limitations, any technology is 
going to have some type of limitations. Now, of course, through 
the metal detectors, those are a little bit less advantageous. 
So only 30 percent of those people have gone through the first 
phase of SPOT, now going through 30 percent will even say they 
go through an AIT machine, where the other 70 percent have gone 
through metal detectors, which are basically less--I don't want 
to say less safe, but not as good as the AIT machines.
    Okay, then we get to the gate, and we have the gate agent 
making sure you get on the right aircraft. We have gone through 
some security, but there is a possibility that something could 
have slipped through.
    Let's talk about the aircraft itself. The aircraft is 
sitting on the tarmac, and around the aircraft, we have nearly 
a million airport workers working around that aircraft are 
credentialed. These credentialed airport works have direct 
access to nonpublic areas and sanitized areas SIDAs, so here 
they are working in the shadow of the air plane, close to a 
million workers. Could you tell me how these workers, these 
million workers, are credentialed?
    Mr. Lord. There is a--they all are required to wear secure 
identification display badges, and they are essentially vetted 
against terrorist watchlists, immigration databases and 
criminal records.
    Mr. Cravaack. We have all seen most recently with all of 
the--we have seen drugs being smuggled on board aircraft; we 
have seen numerous theft rings that have been working in and 
around the aircraft. And it would be safe to say that there are 
also holes within this program as well. Would you be correct in 
that?
    Mr. Lord. There are various vulnerabilities in the layers 
based on the work we completed to date.
    Mr. Cravaack. So we have a potential going to the aircraft, 
some passengers being screened, even having a very good 
possibility of getting through SPOT and also screening 
techniques. And we have just as equal opportunity for the 
potential of items being given--put on board the aircraft on 
the shadow of the aircraft through credentialed workers. So my 
question to you, and I am going to give you a very good one, 
Mr. McLaughlin, if you don't mind, sir, and I say this with all 
due respect, so with the potential of having a person that has 
malintent coming on board the aircraft, linking up with a 
device that is on board the aircraft through a credentialed 
person in the shadow of that aircraft, that aircraft gets 
underway and is in the air, what are the line of defenses 
capable in the air at that time? Who is the last line of 
defense, Mr. McLaughlin? And don't say the cockpit door, the 
armed cockpit door.
    Mr. McLaughlin. That wasn't even my answer.
    With the multiple layers in place, there are on a number of 
flights, we do have Federal Air Marshals. But the layer of 
security that is in place, that is an important layer today, 
and we talk about it from time to time and we know it when we 
fly, is the actual passenger. That individual that learned as 
many lessons on 9/11 as the rest us have learned.
    Mr. Cravaack. True, no truer words are spoken. If I may 
have indulgence, Mr. Chair, but if a professional terrorist has 
done this routine a hundred times, they know when that cockpit 
door is going to be open. They know when it is going to be 
closed. They know a lot of things about the aircraft that your 
average traveling public does not know. So my question to you, 
sir, is there are really not that many FAMs available per 
flight, and that is a classified number, but why in God's green 
Earth would we cut in half a volunteer program that protects 
the aircraft for $15 a flight? Why would we do that?
    Mr. McLaughlin. Sir, I can't really discuss that topic 
because it is really outside my area of responsibility at TSA. 
I can reinforce some of the other layers that are on the 
ground, including the work that we do in and around the 
airport, and we can take that question for the record in terms 
of----
    Mr. Cravaack. I would appreciate that. This program, the 
Federal Flight Deck Officer program, is being cut in half, a 
$15-per-flight program that was the last line of defense for 
many potential terrorists wishing to take that aircraft and use 
it as a weapon of mass destruction. So with that, sir, I would 
appreciate your information on that.
    And with that, sir, I thank the chair's indulgence, and I 
yield back.
    Mr. Farenthold. Thank you very much.
    We will now recognize the gentleman from Tennessee, Mr. 
Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    First, I would like to incorporate by reference all the 
nice things said about TSA personnel in my home community in 
Memphis, particularly, for they be voters, but also in 
Washington, where they are not, have all been courteous and 
nice folk. They have got a tough job, having to do kind of a 
monotonous gig, and they are not the most popular people to see 
when you have to go through that. It is not like Customs and 
checkpoint Charlie, but still, it is something you don't look 
forward to and relish.
    The other is about the TWIC cards, and I reiterate the 
concerns we have got in Memphis with the TWIC cards and they 
are important, but there seems like there could be a better way 
to allow the people that receive them to pick them up, rather 
than have to do it personally; they could be done through the 
mail like driver's licenses and other licenses are. An 
improvement in that system would be helpful in my community. 
Who is the expert here on the process we go through at the 
airport?
    Mr. McLaughlin. The airport would be myself.
    Mr. Cohen. Let me ask you this, today, for the first time, 
I was asked to take off my watch. Why?
    Mr. McLaughlin. While I clearly wasn't there with you, it 
is possible that our divest officer, the individual who is 
working to facilitate the travel of customers, might have felt 
that it would alarm and that you might have had an easier 
experience by removing it, but you are not required to remove 
your watch.
    Mr. Cohen. Well, they made it like everybody was; she was 
announcing, take off your watch. And just like with the very 
flawed systems that they have for onboard diagnostics and the 
check engine light and folks being able to get their car 
inspected, if the light is on, even if the car doesn't emit any 
type of carbon vapors over and above what is expected, they 
won't pass you. And they say, well, it will save you problems 
in the future. That is not EPA's job; nor is it your job to 
make it less likely.
    I don't get it. It made no sense to me at all. And she 
said, you have got to take it off. I mean, it is just like, the 
rules need to be consistent. For a while, we didn't do shoes, 
and then the guy had the shoe, and then some places had shoes 
and some didn't. Now, today, I notice shoes must not be in a 
bin, but they must be laid flat on the conveyer belt. Is that a 
uniform rule?
    Mr. McLaughlin. That is not a rule in place today. At one 
point, we actually changed our procedure with shoes and have 
subsequently some time ago changed that back to allow them to 
be placed in a bin or on the belt. However----
    Mr. Cohen. In Memphis, they have got a sign that says they 
must be placed flat on the conveyer belt, which is not a big 
deal, but sometimes your shoes can get crushed between two 
bags. And if you care about your shoes, that is not wonderful.
    The watch thing just seems it is the inconsistency of 
everything gets you. I am comfortable in my manhood, and so the 
guy was fine, didn't have a problem. But I got out, and he 
wanted to pat me down, and he patted down my chest. The same 
soap I use every day. Never been patted down before on my 
chest. The machine must have messed up is all I can figure.
    Mr. McLaughlin. Again, I can't speak to your specific 
situation, but I can look into it for you.
    Mr. Cohen. I am not terribly concerned. It just seems like 
there should be some consistency. And the machines sometimes 
may be set at different levels or something, because sometimes 
you go through and they want to look at your arm or look at 
this or that. And I mean, I am not the Bionic Man in any--well, 
whatever. I don't have any parts that are new or metallic, so 
it makes no sense.
    Mr. McLaughlin. So our goal is to be uniform and 
consistent, and at the same time, we also want to be random and 
unpredictable at times because we find that is helpful in terms 
of our work in security, but we are looking for a uniform and 
consistent experience for travelers as they come through, and 
as I said, I am happy to follow up on that.
    Mr. Cohen. I agree with Mr. Boswell that there probably 
should be some type of system where you have your most likely 
people that you know that are frequent fliers and are safe and 
going to do any--one day, there was this lady there who has got 
the richest husband in town almost. And she has got a place in 
Aspen, and she has got a place in France. And they were going 
through all of her--if anybody wants to stay alive, it is her. 
I mean, she has got it all. And they were going through all of 
her stuff. When they saw all of that, they should have 
realized, this woman wants to live. Sometimes it is a little 
common sense.
    How much did the puffers cost us? The whole puffer process?
    Mr. McLaughlin. So the puffers predate my time at TSA, I 
can take that question for the record and get back to you. We 
talked earlier about the disposal fee for the puffers.
    Mr. Cohen. And they are history, I know that, but that was 
a loser from jump street, too. I mean, here in Washington, one 
line had a puffer, and one line didn't. So if you are a 
terrorist, you would go through the line that didn't have the 
puffer, thinking the puffer worked. The fact that the puffer 
doesn't work, the terrorist could have chosen either line. But 
they said, well, extra security was given on the other line if 
there was some problem; they looked at you even closer. Well, 
if they looked at you closer in the other line, why didn't they 
look at you closer in the puffer line? I mean, the puffer thing 
was really bad.
    But otherwise, all the TSA people are great. You have a 
tough job. I know you will make it better.
    I yield back the balance of my time.
    Mr. Farenthold. Thank you, Mr. Cohen.
    And the staff informs me that the puffers were around $30 
million. If that is incorrect, please let us know.
    I think the same situation exists today. I fly home 
sometimes on American, sometimes on United. If you go on United 
at DCA, you go through a full body scanner. If you on American, 
you go through a metal detector. It doesn't take a rocket 
scientists to figure out there is a potential issue there.
    We now recognize the gentleman from North Carolina, Mr. 
Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    I arrived a bit delayed. For that, I apologize; I had a 
conflicted schedule. And maybe these questions may have already 
been pursued.
    Mr. Sadler, what has been the total cost of the TWIC 
program to the Federal Government and the private sector?
    Mr. Sadler. To date, the program costs are approximately 
$374 million. That would include $100 million in appropriations 
and about $274 million in user fees for individuals who have 
paid for the TWIC card.
    Mr. Coble. The Federal Government and the private sector, 
both?
    Mr. Sadler. Yes, sir. That is the appropriated money to 
start the program, the $100 million, and then the $274 million 
was the user fees when you enroll and get a TWIC card issued to 
you.
    Mr. Coble. Thank you, sir.
    Admiral, what is the amount of money that you allocate for 
TWIC administration each year?
    Admiral Zukunft. Ours is very minimal. We have expended 
about $2 million looking at mostly commercial off-the-shelf 
technology.
    Mr. Coble. That is $2 million annually?
    Admiral Zukunft. To date. That does not include the day-to-
day expenses of our personnel. I do a number of missions, one 
of those is validating TWICs at these facilities, but that is 
part of our mission set already.
    Mr. Coble. And how many Coast Guard personnel are dedicated 
to oversight of the TWIC program?
    Admiral Zukunft. They are not dedicated solely to TWIC, but 
they do facility inspections. And TWIC is just one element of 
that. So they are looking at everything from what 
infrastructure is in place and so those exist at all of our 
sectors, all of our ports throughout the United States.
    And one example of that is we recently shut down a facility 
in Miami because it didn't have the appropriate safeguards, 
unrelated to TWIC, but there were literally holes in the fence 
line that would allow people with no business to enter into 
those facilities.
    Mr. Coble. How long has TWIC been online?
    Admiral Zukunft. TWIC was implemented in 2009, on April 
15th, and that is when 2,700 facilities were required to have 
TWIC. And on that milestone date, all facilities were in 
compliance. The TWIC reader is going to be critical as we go 
forward, because that will be the next enabling mechanism 
because that biometric chip is really what provides the next 
level of security, beyond the visual recognition that is on the 
existing TWICs.
    Mr. Coble. Thank you, Admiral.
    Thank you, gentlemen.
    I yield back, Mr. Chairman.
    Mr. Farenthold. Thank you very much.
    Seeing no one else on the other side, I will go to Mrs. 
Blackburn from Tennessee for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman, and I thank the 
committee for allowing me to participate today.
    This is an issue, TSA and their participation and their 
conduct is something is that is important to my constituents. 
And Mr. Lord and Mr. McLaughlin have both mentioned constituent 
satisfaction, customer satisfaction, as a goal.
    I would just commend to you looking at The Economist 
magazine's online poll, which they have up right now. And the 
question they are asking is whether or not changes made to 
airport security since 9/11 have done more harm than good. And 
at last check, as I checked, it was 87 percent of the readers 
agree that changes that airport security have done more harm 
than good.
    So, gentlemen, I would contend that we are not doing our 
best at customer service, and I think, Mr. Connolly, my 
colleague from the other side of the aisle, spoke well to that.
    I want to talk with you a little about the VIPR teams, 
because on October 20th, 2011, my home State of Tennessee 
became the first State in the country to deploy VIPR teams 
simultaneously at five weigh stations and two bus stations. The 
teams included your TSOs, BDOs, explosive detection, canine 
teams.
    My office was informed by TSA that the point of operation 
was for TSA agents to recruit truck drivers into the First 
Observer Highway Security Program. The TSOs and the BDOs 
involved in the operation were only supposed to be handing out 
recruitment brochures since neither position has actual Federal 
law enforcement training. However, I have got a couple posters 
here; you can see back here. If you look at these posters, and 
I will call that one Exhibit A, and if you were watching the 
video of this transaction, you would see that this individual, 
who is designated as a TSA employee, is walking around and 
inspecting the truck. So if they were supposed to be handing 
out brochures, what were they doing inspecting the truck? And 
what type training do the TSOs and the BDOs receive to detect 
abnormalities or potential threats in semi trucks, Mr. 
McLaughlin?
    Mr. McLaughlin. Thank you.
    First, the exercise--or I should say, the VIPR that you 
reference in your State of Tennessee was, it is important to 
note, a joint training exercise with 23 different agencies, 
both Federal, State and local, where TSA was invited to 
participate. And by all accounts, the 2- or 3-day exercise went 
off very well. It was an important opportunity for us to build 
relationships to ensure that in the event of a real national 
security emergency, we have the types of relationships----
    Mrs. Blackburn. Sir, you are using my time. But I would 
just ask what type training do they have to actually do these 
inspections and to detect the abnormalities that would be there 
on our Nation's highways? Because they have no Federal law 
enforcement training, correct?
    Mr. McLaughlin. During this exercise, the officers did not 
conduct any screening of any vehicles, nor----
    Mrs. Blackburn. Okay, let me put up poster number two. Then 
why did they ask to open the top of this--open this truck and 
look? Was there a specific threat to Tennessee highways on 
October 20th, 2011? And was there any intelligence suggesting 
that a suspected terrorist may be driving a semi truck across 
Tennessee? And were there specific threats that were deterred 
by conducting this operation?
    Mr. McLaughlin. Well, I can't talk about threats that might 
have been deterred. I can tell you, again, that this was a 
training exercise, not an exercise based on active intelligence 
in the State.
    Mrs. Blackburn. Okay.
    Mr. Sadler, do you have anything to add to that?
    Mr. Sadler. No, ma'am.
    Mrs. Blackburn. You don't. Well, there, again, I want to go 
back to this question, what kind of specific training do they 
have to be on the Nation's highways conducting these kinds of 
searches?
    Mr. McLaughlin. TSOs and BDOs do not receive specific 
training with regard to screening vehicles in the highway mode 
of transportation. The canine team that I believe that I see up 
there, although it is from a distance appears, to be a multi 
modal dog that is trained in that mode of transportation.
    Mrs. Blackburn. So, even though our TSOs have no Federal 
law enforcement training, you are pleased that they you are 
participating in these type exercises?
    Mr. McLaughlin. Again, the VIPR program is set up to 
provide a visual deterrent and to work in conjunction with our 
State and local partners and all modes of transportation. And 
part of that, again, is to build relationships in terms of an 
exercise----
    Mrs. Blackburn. So these TSOs, who have been 
administratively reclassified from being screeners and 
processors and given no Federal law enforcement training, are 
going to be out on our Nation's highways and our seaports and 
participating in this type of activity?
    Mr. McLaughlin. I am not sure I understood that as a 
question.
    Mrs. Blackburn. Okay. Well, let me ask you this, based on 
the performance that you have seen with the VIPR teams and 
their ability to prevent specific terrorist threats, what kind 
of grade would you give them?
    Mr. McLaughlin. I think that our VIPR teams do a very good 
job in a mode of transportation where we have very limited 
resources. I think our VIPR teams working in conjunction with 
State and local agencies do a very good job of providing a 
visible deterrent to people that might be attempting to do 
something bad.
    Mrs. Blackburn. A to F, what kind of grade would you give 
them?
    Mr. McLaughlin. I don't know that I have the experience to 
say specifically. Based on the experience I do have, I would 
give them a grade B plus to A minus, and that largely just 
based on the length of time that the program has been in place. 
It is a program that is only 5 years old in totality.
    Mrs. Blackburn. I would just remind you that your agency 
has agreed that performance measures need to be developed for 
the VIPR teams, so that there can be some measured results and 
some quantifiable data, and we will follow that as we move 
forward.
    One last question that I would have for you, have the VIPR 
teams ever pulled over cars, SUVs or vans?
    Mr. McLaughlin. I am not aware of a TSA asset on a VIPR 
team pulling over a car or van, but I can take that question 
for the record.
    Mrs. Blackburn. I would love to have that answer, because, 
to my knowledge, there is no terrorist that has ever driven a 
semi truck. So we find is very curious, the method that was 
being employed with the VIPR teams and their presence. And you 
can go look at the Zazi example or Shahzad example, and those 
were car cars and SUVs. They were not semi trucks.
    I yield back.
    Mr. Farenthold. Thank you very much. We will now start our 
second round of questioning, and I will give it a go for 5 
minutes, and then we will go to Mr. Cummings.
    As we talk about the SPOT program for a minute, if a BDO 
SPOT agent were able to see something that they considered to 
be suspicious behavior, what is the follow up there? What can 
they do? Do they engage the person in conversation? What is the 
procedure when a SPOT agent detects something? Is there 
something they can do? And if so, can you tell me what that is?
    Mr. McLaughlin. So, in our SPOT program, our officers are 
trained to observe behavior and engage in casual conversations 
with individuals. If the circumstances warrant, they can engage 
local law enforcement for further follow up.
    Mr. Farenthold. And so if they detected something 
suspicious, can they stop them from boarding the plane?
    Mr. McLaughlin. If you are asking can they physically 
detain an individual, SPOT officers are not trained nor do we 
want them to physically detain an individual.
    Mr. Farenthold. I set a SPOT officer off for some reason, 
and I can just walk on and get on my plane; they can't stop me.
    Mr. McLaughlin. I apologize. I misunderstood your question. 
I thought you speaking physically.
    A SPOT officer, if they have reason to believe that you are 
suspicious, can engage a local law enforcement officer, who 
will interview you and either send you on your way or ask you 
additional questions.
    Mr. Farenthold. Has a SPOT officer ever stopped somebody 
from boarding a plane?
    Mr. McLaughlin. Not to my knowledge. Again, there are times 
when a SPOT officer will engage in conversation, but I cannot--
I don't know of a time when an officer has stopped someone from 
getting an airplane.
    Mr. Farenthold. How much are we paying these guys to chat 
up passengers?
    Mr. McLaughlin. So our SPOT officers are paid in the same 
range as our Federal officers, beginning at the F band and 
topping G band, somewhere between $37,000 and $50,000.
    Mr. Farenthold. Last year, in TSA oversight, part one, 
hearing by the OGR committee, Chairman Mica asked some panels 
about the effectiveness of the full body scanners and whether 
or not they could detect body cavity inserts or surgically 
implanted explosive devices. And the unanimous answer to that 
question was no.
    On July 6th of 2011, the TSA released a notice to airlines 
warning them of the increased threat caused by explosive 
implant methods. And earlier this month, someone posted a video 
on the Internet demonstrating how to defeat these machines. Why 
are we continuing to spend hundreds of millions of dollars on 
technology with such obvious vulnerabilities? And what have you 
done with respect to the hearing last month and the revelation 
that they can't detect some these things?
    Mr. McLaughlin. First of all, I would point out that 
recently, our administrator testified with regard to AIT 
effectiveness. And there is a follow-up hearing, as I 
understand it, in the month of April in a classified setting 
where he will be able to get into more details. So I will tell 
you that we, obviously, on a daily basis review vulnerabilities 
in our system and ensure that we have mitigations in place, 
including AIT, which is our best deterrent or our best 
detection against metallic and nonmetallic threats----
    Mr. Farenthold. And is it your plan to replace all the 
magnetometers with AITs?
    Mr. McLaughlin. That is not our current plan. Based on sort 
of our evolution with the risk-based security, we are looking 
at the best way to deploy the best assets we have in 
configurations that makes sense across the system.
    Mr. Farenthold. And as they are purchased, are they getting 
deployed in a timely manner. I know there are some warehouses 
that a lot of this equipment sits in as it gets deployed, and 
the last I had heard, we weren't using modern deployment 
techniques, like drop-shipping them to airports.
    Mr. McLaughlin. To my knowledge there are no AITs in the 
warehouse that you refer to. The AITs are being deployed 
readily, and our utilization numbers are improving dramatically 
on a daily basis.
    Mr. Farenthold. And where are we with getting a peer-
reviewed safety evaluation of these machines, specifically four 
TSA agents that are nearby and operating them and frequent 
screenees, be they frequent fliers or--I realize now the 
airline staffs are typically are diverted through 
magnetometers, but I saw a pregnant female TSA officer right by 
one of those machines and was concerned, because I understand 
there are no peer-reviewed safety checks there.
    Mr. McLaughlin. So with regard to the backscatter 
technology, which is the one that uses radiation, there have 
been three, as I understand it, independent studies, including 
one from NIST, one from the Food and Drug Administration, and 
one from the U.S. Army.
    In addition to that, the machines are subjected to regular 
dosimeter testing to ensure that they fall within safe limits. 
And with every test that has been conducted, the units are well 
below established limits. All of the tests that I just referred 
to, both NIST and the Food and Drug, as well as the Army, and 
as well as the surveys with dosimeter surveys, are available on 
TSA's public Web site at tsa.gov.
    Mr. Farenthold. Mr. Lord, are you comfortable with those?
    Mr. Lord. The IG recently reported on that and repeated 
much of the same information Mr. McLaughlin just provided. I am 
comfortable with what I heard, but if you are interested in 
having us conduct follow up, I can certainly talk to your staff 
after----
    Mr. Farenthold. Thank you very much. We will be in touch.
    Now recognize the ranking member, Mr. Cummings, for 5 
minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Assistant Secretary Sadler, the GAO reported that its audit 
found that TSA had inadequate screening systems in place to 
identify applicants ineligible for TWICs and to deny the 
issuance of TWICs to them. What steps has TSA taken to address 
these findings?
    Mr. Sadler. Well, the first thing we did was we created an 
executive level oversight board coordination with DHS to map 
out our short-term, medium-term and long-term strategy to 
address these recommendations. Immediately after receiving the 
report and the recommendations, we retrained the trusted 
agents; those are the individuals who collect the information 
at the enrollment sites, their ability to identify fraudulent 
documentation.
    We also made system modifications that allow to us collect 
more information on the documents that are collected, pass that 
to our adjudicators so they could be reviewed more thoroughly. 
The mid-term and longer-term plan, we are making arrangements 
with the U.S. IDENT system, U.S. VISIT, so we can send our 
fingerprints into that repository and check our fingerprints 
that we have against the fingerprints in their repository to 
see if anybody is applying under multiple names or identities.
    The other long-term project that we are working on is to 
wrap that capability with the FBI, and what that means is, 
currently, we are required to submit fingerprints, a new set of 
fingerprints each time we want a criminal history records 
check. What we are working towards is seeing if we can submit 
the fingerprints we have on file to the FBI to get a criminal 
history records check without hauling someone in to submit a 
new set of prints, and also that capability will tell us if the 
individual has committed some type of criminal offense in 
between the applications that they make every 5 years.
    So there are a number of things we are doing. We took the 
recommendations very seriously, and we are doing the best we 
can with the program. We want to make it the best that it can 
be.
    Mr. Cummings. Now, during a hearing on TWIC held by the 
Senate Commerce Committee in May of 2011, Mr. Lord indicated in 
response to a question from Senator Boozman that a normal 
driver's license is at least as secure, probably in many cases 
more secure, than a TWIC. Is a TWIC more or less secure than a 
normal driver's license?
    Mr. Sadler. I would have to defer to Mr. Lord on how he 
came to that conclusion. But for the TWIC, we think that TWIC 
is a secure credential, because you have to remember prior to 
TWIC, you could go to a port and gain access to a port with 
multiple credentials, possibly a credit card, a union card, any 
number of credentials.
    So the first thing I would say about the TWIC is, it is the 
first time a common credential has been issued in a maritime 
environment, which means we can train to that credential. The 
second thing I would say is we developed many security features 
to put on that card, and we did that in coordination with other 
agencies, including the forensics document lab at ICE. So we 
did the best we could do make that card secure.
    And then you also need to keep in mind it has a biometric 
on it, and although the readers aren't in place at the Coast 
Guard does have portable handheld readers that they can use to 
do random checks and security checks, as well as do checks as 
far as for port security inspections and vessel security 
inspections each year.
    Mr. Cummings. Admiral Zukunft, Section 809 of the Coast 
Guard Authorization Act of 2010 exempts mariners who do not 
need access to a secure area of a vessel from the requirement 
that they obtain a TWIC. Coast Guard Policy Letter 1115 
implements Section 809 but still requires those seeking their 
first mariner credential to visit a TWIC enrollment center, 
essentially, to complete the TWIC enrollment process and pay 
the enrollment fee.
    Admiral, I understand that the TWIC exemption has been 
estimated by the Coast Guard to apply to potentially 60,000 of 
the 210,000 licensed mariners in the United States. Is that 
correct?
    Admiral Zukunft. That is correct. And to date, we have only 
had approximately only 68 take advantage of the 809 provision.
    Mr. Cummings. And why do you think that is?
    Admiral Zukunft. For some, they see that TWIC as an 
employment opportunity. So if an employer would ask, why do you 
not have a TWIC, in this competitive environment, they see that 
as advantageous to have that credential and an up-to-date 
background check.
    Mr. Cummings. I see my time has expired. I yield back.
    Mr. Farenthold. Thank you very much. There are quite a few 
other questions, and some of the other members that had to 
leave did want to ask some additional questions, so with that 
in mind, we will be submitting additional questions in writing 
to complete the record as we finish this up.
    Also, without objection, I would like to leave 7 days open 
for members to submit both those questions and opening 
statements.
    I would like to thank each and every member of the panel 
for being with us, commend you for your service to this 
country, and urge you to continue to look for ways to improve 
what you and your agencies are able to do to better serve and 
better spend--more efficiently spend and use the taxpayers 
money to provide a safe transportation environment for all of 
us. Thank you for being here.
    We are done.
    [Whereupon, at 3:30 p.m., the committees were adjourned.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
